  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




MISSOURI DID NOT ALWAYS CORRECTLY
  CLAIM COSTS FOR MEDICAID FAMILY
PLANNING STERILIZATION PROCEDURES
 FOR CALENDAR YEARS 2009 AND 2010




    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Gloria L. Jarmon
                                                  Deputy Inspector General

                                                          June 2013
                                                        A-07-12-01117
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Missouri, the Department of Social Services,
Missouri HealthNet Division (the State agency), is responsible for administering the Medicaid
program.

Consistent with this responsibility, the State agency submits to CMS, on a quarterly basis, its
standard Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program (CMS-64 report), to report Medicaid expenditures for Federal
reimbursement.

The amount that the Federal Government reimburses to State Medicaid agencies, known as
Federal financial participation or Federal share, is determined by the Federal medical assistance
percentage (FMAP). The FMAP is a variable rate that is based on a State’s relative per capita
income. The State agency’s FMAP ranged from 71.24 percent to 74.43 percent for claims paid
during calendar years (CY) 2009 and 2010.

Federal requirements authorize Federal reimbursement at an enhanced 90-percent rate
(90-percent rate) for family planning services, which include services that prevent or delay
pregnancy or otherwise control family size and may also include sterilization procedures.

During CYs 2009 and 2010, the State agency reported sterilization procedure costs of
$14,592,649, which served as its basis for claiming Federal reimbursement.

OBJECTIVE

Our objective was to determine whether the State agency correctly claimed costs for Medicaid
family planning sterilization procedures on the CMS-64 reports for CYs 2009 and 2010.

SUMMARY OF FINDINGS

The State agency did not always correctly claim costs for Medicaid family planning sterilization
procedures on the CMS-64 reports for CYs 2009 and 2010. Specifically, the State agency made two
errors on its claims:

   •   The State agency claimed costs for Federal reimbursement for the same outpatient
       hospital or clinic service on two lines of the CMS-64 report. The second claim was not
       allowable for Federal reimbursement.


                                                 i
   •   Because the State agency subtracted one-third of total sterilization costs from each of
       three lines—inpatient hospital, outpatient hospital, and clinic services—instead of using
       actual costs for each line, the State agency used incorrect costs to claim Medicaid family
       planning sterilization procedures on the CMS-64 reports.

As a result of these errors, the State agency overstated the amount of Federal reimbursement
reported on the CMS-64 reports by $1,480,516. This excess Federal reimbursement occurred
because the State agency’s adjustment process—that was designed to identify costs for family
planning sterilization procedures—was ineffective.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $1,480,516 to the Federal Government,

   •   review costs for family planning sterilization procedures for quarterly reporting periods
       after our audit period and refund any overpayments to the Federal Government, and

   •   ensure that future expenditures for family planning sterilization procedures are claimed
       correctly on the CMS-64 reports.

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, the State agency agreed with our recommendations and
described corrective actions that it had implemented or planned to implement, including
refunding the $1,480,516. Regarding our second recommendation, the State agency stated that it
would refund an additional $893,025 to the Federal Government. We verified that the State
agency correctly calculated this overpayment.




                                                ii
                                                 TABLE OF CONTENTS

                                                                                                                             Page

INTRODUCTION ................................................................................................................. 1

      BACKGROUND ............................................................................................................. 1
            Medicaid Program ............................................................................................ 1
            Missouri Medicaid Program ............................................................................ 1
            Medicaid Coverage of Family Planning Services ............................................ 1
            State Agency’s Methodology for Claiming Costs for Family Planning
             Sterilization Procedures ..................................................................................2

      OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 2
             Objective .......................................................................................................... 2
             Scope................................................................................................................ 2
             Methodology .................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ....................................................................... 3

      FEDERAL REQUIREMENTS ........................................................................................ 4

      INCORRECT CLAIMS FOR FEDERAL REIMBURSEMENT FOR
        STERILIZATION PROCEDURES .............................................................................. 4
              Incorrect Adjustment to Claims for Federal Reimbursement for
               Outpatient Hospital or Clinic Service Sterilization Procedures .....................4
              Incorrect Adjustment to Claims for Federal Reimbursement for Inpatient
               Hospital, Outpatient Hospital, and Clinic Service Sterilization Procedures ...5

      INEFFECTIVE ADJUSTMENT PROCESS ................................................................... 5

      EXCESS FEDERAL REIMBURSEMENT ..................................................................... 5

      RECOMMENDATIONS ................................................................................................. 5

      STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR
       GENERAL RESPONSE ............................................................................................... 6


APPENDIXES

      A: CALCULATION OF QUESTIONED COSTS BY QUARTER

      B: STATE AGENCY COMMENTS

      C: STATE AGENCY SUPPLEMENTAL COMMENTS


                                                                   iii
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

States use the standard Form CMS-64, Quarterly Medicaid Statement of Expenditures for the
Medical Assistance Program (CMS-64 report), to report actual Medicaid expenditures for each
quarter and CMS uses it to reimburse States for the Federal share of Medicaid expenditures. The
amounts reported on the CMS-64 report and its attachments must represent actual expenditures
and be supported by documentation.

Missouri Medicaid Program

In Missouri, the Department of Social Services, Missouri HealthNet Division (the State agency),
is responsible for administering the Medicaid program. The amount that the Federal
Government reimburses to State Medicaid agencies, known as Federal financial participation
(FFP) or Federal share, is determined by the Federal medical assistance percentage (FMAP).
The FMAP is a variable rate that is based on a State’s relative per capita income. The State
agency’s FMAP ranged from 71.24 percent to 74.43 percent for claims paid during calendar
years (CY) 2009 and 2010.

The State agency uses its Medicaid Management Information System (MMIS) to process claims.
MMIS is a computerized payment and information reporting system that States are required to
use to process and pay Medicaid claims.

Medicaid Coverage of Family Planning Services

Section 1905(a)(4)(C) of the Act requires States to furnish family planning services and supplies
to individuals of childbearing age (including minors who can be considered to be sexually active)
who are eligible under the State plan and who desire such services and supplies. Section
1903(a)(5) of the Act and 42 CFR § 433.10(c)(1) authorize Federal reimbursement at an
enhanced 90-percent rate (90-percent rate) for family planning services.

Section 4270 of the CMS State Medicaid Manual (the manual) describes family planning
services as those that prevent or delay pregnancy or otherwise control family size. Family
planning services include, but are not limited to, the following items and services: counseling
services and patient education, examination and treatment by medical professionals in


                                                1
accordance with States’ requirements, devices to prevent conception, and sterilization
procedures; and may include infertility services, including sterilization reversals.

State Agency’s Methodology for Claiming Costs for Family Planning
Sterilization Procedures

The State agency used computer programs to identify family planning claims according to
diagnosis and procedure codes. The programs accessed the MMIS, which contains records of
paid claims, and produced reports that listed claims with family planning services. The State
agency used these reports to claim family planning expenditures for Federal reimbursement on
the CMS-64 reports.

The CMS-64 report has one line designated for reporting incurred costs for sterilization
procedures (designated line). The State agency initially recorded these costs on three lines other
than the designated line. Those three lines were (a) inpatient hospital services, (b) outpatient
hospital services, and (c) clinic services. Because the State agency initially recorded these costs
on lines other than the designated line, it used an adjustment process to move the sterilization
costs to the designated line prior to its submission of the CMS-64 reports to CMS. These
adjustments should have been (a) deducted from the three lines at actual costs initially recorded
and at the Federal reimbursement rates at which it recorded them and (b) added to the designated
line at the 90-percent rate.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency correctly claimed costs for Medicaid
family planning sterilization procedures on the CMS-64 reports for CYs 2009 and 2010.

Scope

We reviewed $14,592,649 that the State agency reported for sterilization procedures during CYs
2009 and 2010. During this same period, the State agency received Federal reimbursement
totaling $43,829,616 for all family planning services. We are separately reviewing family
planning services other than sterilization.

We reviewed the FMAPs and 90-percent rates used to calculate the Federal reimbursement that
the State agency received from its claimed expenditures, but we did not review the medical
necessity of the claims or analyze the claims to determine whether they qualified as family
planning services. Further, we did not review the overall internal control structure of the State
agency or the Medicaid program. We reviewed only the internal controls that pertained directly
to our objective.

We performed fieldwork at the State agency’s offices in Jefferson City, Missouri, from January
through May 2012.



                                                 2
Methodology

To accomplish our objective, we:

   •   reviewed Federal laws, regulations, and guidance and the State plan;

   •   held discussions with CMS officials to gain an understanding of CMS requirements and
       guidance furnished to State agency officials concerning Medicaid family planning claims;

   •   held discussions with State agency officials to gain an understanding of how the State
       agency claimed Medicaid reimbursement for family planning services, including
       sterilization procedures;

   •   reconciled family planning claims reported on the CMS-64 reports with the State
       agency’s supporting documentation;

   •   calculated the incorrect Federal reimbursement—for sterilization procedures—that was
       reported on three lines of the CMS-64 reports: inpatient hospital services, outpatient
       hospital services, and clinic services;

   •   discussed the results of our review with State agency officials on August 30, 2012, and
       provided a list of questioned costs by quarter; and

   •   reviewed the State agency’s calculation of overpayments identified in its review of costs
       for family planning sterilization procedures for quarterly reporting periods after our audit
       period.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                         FINDINGS AND RECOMMENDATIONS

The State agency did not always correctly claim costs for Medicaid family planning sterilization
procedures on the CMS-64 reports for CYs 2009 and 2010. Specifically, the State agency made two
errors on its claims:

   •   The State agency claimed costs for Federal reimbursement for the same outpatient
       hospital or clinic service on two lines of the CMS-64 report. The second claim was not
       allowable for Federal reimbursement.

   •   Because the State agency subtracted one-third of total sterilization costs from each of
       three lines—inpatient hospital, outpatient hospital, and clinic services—instead of using


                                                3
       actual costs for each line, the State agency used incorrect costs to claim Medicaid family
       planning sterilization procedures on the CMS-64 reports.

As a result of these errors, the State agency overstated the amount of Federal reimbursement
reported on the CMS-64 reports by $1,480,516. This excess Federal reimbursement occurred
because the State agency’s adjustment process—that was designed to identify costs for family
planning sterilization procedures—was ineffective.

FEDERAL REQUIREMENTS

Federal regulations (42 CFR § 433.32(a)) require that the State agency “[m]aintain an accounting
system and supporting fiscal records to assure that claims for Federal funds [reported on the
CMS-64 report] are in accord with applicable Federal requirements ….”

Pursuant to section 4270 of the manual, only items and procedures clearly furnished or provided
for family planning purposes may be claimed at the 90-percent rate. Additionally, section
4270(B)(1) of the manual states that “FFP at the 90 percent rate is available for the cost of a
Medicaid sterilization ….”

INCORRECT CLAIMS FOR FEDERAL REIMBURSEMENT FOR
STERILIZATION PROCEDURES

Incorrect Adjustment to Claims for Federal Reimbursement for
Outpatient Hospital or Clinic Service Sterilization Procedures

The State agency did not always correctly claim costs for Medicaid family planning sterilization
procedures on the CMS-64 reports. The State agency made two claims for the same outpatient
hospital or clinic service for Federal reimbursement. The second claim was not allowable for
Federal reimbursement.

The State agency made one claim correctly at the 90-percent rate on the designated line.

The State agency inadvertently made an additional claim for the same sterilization procedures
(for outpatient hospital or clinic services). The additional claim occurred when the State agency
moved sterilization costs to the designated line and negatively adjusted the initial lines at the
FMAP rates (which ranged from 71.24 percent to 74.43 percent) instead of at the 90-percent rate
initially used to record the costs for these two lines. The difference between Federal
reimbursement at the 90-percent rate and at the lower FMAP rates represented the amount of the
second claim.

Because the State agency claimed the costs on the designated line, the additional claim (on the
initial lines for outpatient hospital or clinic services) was unallowable for Federal
reimbursement.




                                                4
Incorrect Adjustment to Claims for Federal Reimbursement for Inpatient
Hospital, Outpatient Hospital, and Clinic Service Sterilization Procedures

Contrary to Federal requirements, the State agency used incorrect costs to claim Medicaid family
planning sterilization procedures on three lines of the CMS-64 reports.

The incorrect claims occurred when the State agency moved sterilization costs from each of the
CMS-64 report lines for inpatient hospital services, outpatient hospital services, and clinic
services (initially used to record the costs) to the designated line. The State agency moved
one-third of the total sterilization costs from each line rather than using the correct actual costs.
The adjustment process created incorrect costs for each line with amounts that were either more
or less than the actual costs for each line.

Because of these errors, the State agency overstated claims for Federal reimbursement on the
inpatient hospital services line and the outpatient hospital services line and understated claims
for Federal reimbursement on the clinic services line.

INEFFECTIVE ADJUSTMENT PROCESS

These errors occurred because the State agency’s adjustment process—that was designed to identify
costs for family planning sterilization procedures—was ineffective. Specifically, the State agency’s
adjustment process did not ensure that the adjustments were deducted from the three lines at actual
costs initially recorded at the Federal reimbursement rates at which it recorded them.

EXCESS FEDERAL REIMBURSEMENT

The State agency received $1,480,516 in excess Federal reimbursement because of two errors
that it made. The State agency (a) claimed costs for Federal reimbursement for the same service
on two lines on the CMS-64 report and (b) used incorrect costs to claim Medicaid family
planning sterilization procedures on the CMS-64 reports. The State agency made these errors at
the same time, so we could not differentiate the monetary effects of one from the other.

The details of the excess Federal reimbursement are listed in Appendix A.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $1,480,516 to the Federal Government,

   •   review costs for family planning sterilization procedures for quarterly reporting periods
       after our audit period and refund any overpayments to the Federal Government, and

   •   ensure that future expenditures for family planning sterilization procedures are claimed
       correctly on the CMS-64 reports.


                                                  5
STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, the State agency agreed with our recommendations and
described corrective actions that it had implemented or planned to implement, including
refunding the $1,480,516. Regarding our second recommendation, the State agency stated that it
would refund an additional $893,025 to the Federal Government. We verified that the State
agency correctly calculated this overpayment.

The State agency’s comments appear in their entirety as Appendix B. The State agency’s
supplemental comments appear as Appendix C.




                                              6
APPENDIXES
      APPENDIX A: CALCULATION OF QUESTIONED COSTS BY QUARTER

The Department of Social Services, Missouri HealthNet Division (the State agency), received
$1,480,516 in excess Federal reimbursement. That amount consists of the difference between
Federal reimbursement at the enhanced 90-percent rate (90-percent rate) ($8,214,033) and
Federal reimbursement at the lower Federal medical assistance percentage (FMAP) rates
($6,733,517).

The following table presents details of the excess Federal reimbursement by quarter for Medicaid
family planning sterilization procedures. The amounts represent the combined effect that
resulted because the State agency (a) claimed costs for Federal reimbursement for the same
service on two lines on the standard Form CMS-64, Quarterly Medicaid Statement of
Expenditures for the Medical Assistance Program (CMS-64 report) and (b) used incorrect costs
to claim Medicaid family planning sterilization procedures on the CMS-64 reports. These errors
occurred simultaneously and their monetary effects therefore cannot be differentiated.

                            Table: Excess Federal Reimbursement

                               Amounts at      Amounts at
                 Quarter       90-Percent       FMAP       Net Difference
                 Ended            Rate           Rates    Questioned Costs

               03/31/2009         $958,191      ($758,462)        $199,729
               06/30/2009        1,016,997       (827,948)         189,049
               09/30/2009          963,440       (784,347)         179,093
               12/31/2009        1,102,443       (911,720)         190,723
               03/31/2010        1,009,552       (834,900)         174,652
               06/30/2010        1,171,152       (968,543)         202,609
               09/30/2010          967,484       (800,109)         167,375
               12/31/2010        1,024,774       (847,488)         177,286


               Total            $8,214,033     ($6,733,517)      $1,480,516
                                                                                                                                           Page 1 of2


             APPENDIX B: STATE AGENCY COMMENTS




            }(mr Potn ttial. Our Support.
                                                                JEREMIAH W. ( JAY) NIXON, G OVERNOR • ALAN 0. F REEMAN, DIRECTOR

   ----------------------------                                                                                           MO H EALTHN ET DI VISION
                                                                                                      1'.0. B OX 6500 • JEFFERSON CITY, MO 65102-6500
                                                                                                                      WWW.DSS.MO.GOV • 573-751-3 425




                                                 March 14, 2013


Patrick Cogley
Regional Inspector General for Audit Services
Office of Inspector General
Office of Audit Services, Region VII
601 East 121h Street, Region 0429
Kansas City, MO 64106

      Re:    A-07-12-01117

Dear Mr. Cogley:

This is in response to the Office of Inspector General's (OIG) draft report entitled
"Missouri Did Not Always Correctly Claim Costs for Medicaid Family Planning
Sterilization Procedures for Calendar Years 2009 and 2010", Report Number A-07-12­
01117. The Department of Social Services' (DSS) responses are below. The OIG
recommendations are restated for ease of reference.

Recommendation 1: The OIG recommends that the State agency refund $1,480,516 to
the Federal Government.

DSS Response: The DSS agrees with this recommendation. The DSS will adjust the
CMS-64 for the quarter ending March 31, 2013 to refund the $1,480,516 to the Federal
Government.

Recommendation 2: The OIG recommends that the State agency review costs for
family planning sterilization procedures for quarterly reporting periods after our audit
period and refund any overpayments to the Federal Government.

DSS Response: The DSS agrees with this recommendation. With the submission of the
CMS-64 report for the quarter ending December 31, 2011, the DSS implemented a new
procedure for reporting sterilizations. The quarterly reporting periods after the audit
period were reviewed. The DSS will also adjust the CMS-64 for the quarter ending
March 31, 2013 to refund the $821,383 to the Federal Gove rnment.



                                                        R EL AY M ISSOURI
                                            FOR HEARING AND SPEECH IMPAIRED
                                1-800· 735-2466 VOICE • 1-800· 735-2966 TEXT PHONE
                        Afl Hqual Opponumty l:'mploycr, .w!rvi~.·e.~ (>tYwided 011 a ntmdi.~,·ru!tiiiOifny ha.w,\·.
                                                                                          Page 2 of2




Recommendation 3: The OIG recommends that the State agency ensure that future
expenditures for famil y planning sterilization procedures are claimed correctly on the
CMS-64 reports.

DSS Response: The DSS agrees with this recommendation. For the quarter ending
December 31, 2011, the DSS implemented a new process for reporting sterilizations. A
quarterly report is produced of all paid steri lizations by category of service and the
actual amount reported is then deducted from the family planning expenditures
reported on the related line on the CMS-64 report. The total expenditures for
sterilizations are subsequently reported on the sterilization line at the family planning
rate.

Please contact Jennifer Tidball, Director, Division of Finance and Administrative
Services at 573/751-7533 if you have further questions.

                                        Sincerely,



                                      ~~r-
                                        Director

AOF:jc
                                                                                                                                            Page 1 of2


 APPENDIX C: STATE AGENCY SUPPLEMENTAL COMMENTS




             1-0ur Pol entia!. Our Srmport.
                                                             J EREM IAH W. {J AY) NIXON, GOVERNOR • ALAN 0. FREEMAN, D IRECTOR

                                                                                  DIVI SION OF FINANCE AND ADMINISTRAT IVE SE RVICES
                                                                          f'.O. BOX IOR2 • 2' I WIST Ill( ill • }f rtERSn;> CITY, MlJ 65102- IORJ.
                                                                                                               5 7~-7 ~ 1 -J54:!   • 573-751 -7593   lAX




                                                April 25, 2013


Patrick Cogley
Regional Inspector General for Audit Services
Office of Inspector General
Office of Audit Services, Region VII
601 East 12th Street, Region 0429
Kansas City, MO 64106

      Re:    A-07-12-01117

Dear Mr. Cogley:

On March 14, 2013, a response was sent to you regarding the Office of Inspector
General's (OIG) draft report entitled " Missouri Did Not Always Correctly Claim Costs for
Medicaid Family Planning Sterilization Procedures for Calendar Years 2009 and 2010",
Report Number A-07-12-01117. After discussions with I REDACTED I, we are
submitting a revised amount for DSS to adjust on the CMS-64 for the quarter ending
March 31, 2013, based on actual costs rather than estimates. The revised amount will
be $893,025.00. Also attached to this letter is documentation that shows how this
amount was arrived at.

Please contact Jennifer Tidball , Director, Division of Finance and Administrative
Services at 573/751-7533 if you ha ve further questions.


                                                      s;n~i(J, 2vJ}
                                                    ~;fe<
                                                      Director
                                                                        R. Tidball


JRT:AP:bsb

Attachment



                                                     R ELAY M ISSOUR I
                                           FOR HEARrNG AND SPEECH IMPAIRED
                               1-800-735-2466 VOICE          •   1-800-735-2966 TEXT PHONE
                        An Equal Opporrtmity Employer. xetvice,~; prmHded tm a nondi.\·crimitlolory hasi.'i.
                                                              Page 2 of2




                OIG Report A-()7-12-0117 

            DSS Rsponse to Recommendation 2 

Sterilization FFP over-claimed subsequent to audit period 


              Quarter           Over-Claim FFP
              QE 03/ 31/2011        (292,214.00)
              QE 06/ 30/2011        (264, 149.00)
              QE 09/30/ 2011        (336,662 .00)
                                    (893,025.00)
